No. 19-959
In the

Supreme Court of the United States

TAMKO BUILDING PRODUCTS, INC.,
Petitioner,
v.
DANIEL WILLIAMS AND BARBARA WILLIAMS,
Respondents.

On Petition for a Writ of Certiorari to the
Supreme Court of Oklahoma

BRIEF IN OPPOSITION
Jeremy K. Ward
Jennifer A ry
Franden | Farris | Quillin |
Goodnight + Roberts
Two West Second Street,
Suite 900
Tulsa, OK 74103
(918) 583-7129

K arla Gilbride
Counsel of Record
Public Justice, P.C.
1620 L Street NW,
Suite 630
Washington, DC 20036
(202) 797-8600
kgilbride@publicjustice.net

Counsel for Respondents
April 1, 2020
295138

A
(800) 274-3321 • (800) 359-6859

i
COUNTERSTATEMENT OF
QUESTIONS PRESENTED
1.

Did the Oklahoma Supreme Court correctly
apply general principles of agency law that
neither single out nor disfavor arbitration when
it concluded that the contractors who Daniel and
Barbara Williams hired for the limited purpose
of installing roofing shingles on their home lacked
the authority to bind them to contracts affecting
their legal rights?

2.

The Oklahoma Supreme Court concluded that any
knowledge the Williamses’ contractors obtained
about the warranty printed on Tamko’s shingle
wrapper could not be imputed to the Williamses
because the contractors were acting outside the
scope of their authority. But given that the record
contained no legible representation of the shingle
wrapper that the Williamses’ roofers would have
seen when they installed the shingles in 2007,
did Tamko even meet its burden of proving what
the roofers knew or should have known about
the wrapper’s contents and the significance of
opening it, a prerequisite for imputing their
knowledge to the Williamses?

ii
TABLE OF CONTENTS
Page
COUNTERSTATEMENT OF QUESTIONS
PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
REASONS FOR DENYING THE PETITION  . . . . . . 9
I.

The Opinion Below Did Not Target
Arbitration Expressly Or Covertly But
Simply Applied General Agency Principles
In A Case Involving Arbitration . . . . . . . . . . . . . .9
A. Tamko Had The Burden Of Proving The
9Existence And Scope Of Any Agency
And Failed To Meet That Burden. . . . . . . . 11
B. T he Ok l a hom a S upr eme Cou r t
Correctly Concluded That Agreeing
To Wa ive Leg a l R ight s Is Not
Incidental Or Reasonably Necessary
To The Installation of Shingles  . . . . . . . . . 13

iii
Table of Contents
Page
C. Neither Ratification Nor Imputation
Is Possible Without Actual Notice, On
The Face Of The Shingle Wrapper,
Of The Contractual Significance Of
Unwrapping The Bundle.  . . . . . . . . . . . . . .  17
II. Petitioner’s Account Of Federal A nd
State Cases Involving Its Shingles Is
Exaggerated And Incomplete. . . . . . . . . . . . . . . 23
III. The Opinion Below Will Not Interfere With
Commerce, But Embracing Petitioner’s
Radical View Of Agency Would Have
Far-Reaching Consequences. . . . . . . . . . . . . . . . 27
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Aetna Cas. & Sur. Co. of Hartford, Conn. v.
Local Bldg. & Loan Ass’n,
19 P.2d 612 (Okla. 1933)  . . . . . . . . . . . . . . . . . . . . . . . 18
Am. Family Mut. Ins. Co. v.
Tamko Bldg. Prods., Inc.,
178 F. Supp. 3d 1121 (D. Colo. 2016)  . . . . . . . . . . . 7, 24
Bank of McAlester v. Middlebrooks,
241 P. 765 (Okla. 1925)  . . . . . . . . . . . . . . . . . . . . . . . . 15
Banning Transp., Inc. v. Vansickle,
527 P.2d 586 (Okla. 1974)  . . . . . . . . . . . . . . . . . . . . . . 12
Campbell v. John Deere Plow Co.,
172 P.2d 319 (Okla. 1946)  . . . . . . . . . . . . . . . . . . . . . . . 8
D. W. L., Inc. v. Goodner-Van Engineering Co.,
373 P.2d 38 (Okla. 1962) . . . . . . . . . . . . . . . . . . . . . . . 18
Dakota Foundry, Inc. v.
Trombley Indus. Holdings, Inc.,
737 F.3d 492 (8th Cir. 2013) . . . . . . . . . . . . . . . . . . . . 21
DeCorte v. Robinson,
969 P.2d 358 (Okla. 1998) . . . . . . . . . . . . . . . . . . . . . . 15
Diaz v. Sohnen Enterprises,
245 Cal. Rptr. 3d 827 (Cal. App. 2019)  . . . . . . . . . . . 26

v
Cited Authorities
Page
Douglas v. Steele,
816 P.2d 586 (Okla. Civ. App. 1991) . . . . . . . . . . . . . .  17
Dye v. Tamko Bldg. Prods., Inc.,
908 F.3d 675 (11th Cir. 2018)  . . . . . . . . . . . . . . . . . . . 25
Elliott v. Mutual Life Ins. Co. of New York,
91 P.2d 746 (Okla. 1939)  . . . . . . . . . . . . . . . . . . . . . . . 14
Extendicare Homes, Inc. v. Whisman,
478 S.W.3d 306 (Ky. 2015) . . . . . . . . . . . . . . . . . . . . . 1, 2
Gamble v. Cornell Oil Co.,
154 F. Supp. 581 (W.D. Okla. 1957), aff’d, 260
F.2d 860 (10th Cir. 1958) . . . . . . . . . . . . . . . . . . 3, 18, 19
GGNSC v. Southaven,
817 F.3d 169 (5th Cir. 2016)  . . . . . . . . . . . . . . . . . . . . 15
Hall v. North Plains Concrete Service, Inc.,
425 P.2d 941 (Okla. 1966) . . . . . . . . . . . . . . . . .  3, 12-13
Hobbs v. Tamko Bldg. Prods., Inc.,
479 S.W.3d 147 (Mo. Ct. App. 2015) . . . . . . . . . . . 25, 27
Hoekman v. Tamko Bldg. Prods., Inc.,
No. 2:14-cv- 01581-TLN-KJN, 2015
WL 9591471 (E.D. Cal. Aug. 26, 2015) . . . . . . . passim
Ingrim v. Brook Chateau,
586 S.W.3d 772 (Mo. 2019)  . . . . . . . . . . . . . . . . . . . . . 26

vi
Cited Authorities
Page
Kincaid v. Black Angus Motel,
983 P.2d 1016 (Okla. 1999)  . . . . . . . . . . . . . . . . . . . . . . 8
Kindred Nursing Centers Limited
Partnership v. Clark,
137 S. C t. 1421 (2017) . . . . . . . . . . . . . . . . . . . . . passim
Krusch v. TAMKO Bldg. Prods., Inc.,
34 F. Supp. 3d 584 (M.D.N.C. 2014)  . . . . . . . . . passim
Medeiros Revocable Trust v.
Morgan Stanley Smith Barney LLC,
446 P.3d 533 (Okla. Civ. App. 2019) . . . . . . . . . . . . . . 26
Mutual Oil Co. v. Roach,
243 P. 504 (Okla. 1926)  . . . . . . . . . . . . . . . . . . . . . . . . 15
Nat’l Fed’n of the Blind v.
The Container Store, Inc.,
904 F.3d 70 (1st Cir. 2018)  . . . . . . . . . . . . . . . . . . . . . 21
Nelson v. Tamko Bldg. Prods., Inc.,
No. 15–1090–MLB, 2015 WL 3649384
(D. Kan. June 11, 2015) . . . . . . . . . . . . . . . . . . . . . . . . 26
One Belle Hall Prop. Owners Ass’n, Inc. v.
Trammell Crow Residential Co.,
791 S.E.2d 286 (S.C. App. 2016) . . . . . . . . . . . . . . . . .26
Opp v. Wheaton Van Lines, Inc.,
231 F.3d 1060 (7th Cir. 2000) . . . . . . . . . . . . . . . . . . . 16

vii
Cited Authorities
Page
Overlook Terraces, Ltd. v.
Tamko Bldg. Prods., Inc.
No. 3:14–CV–00241–CRS, 2015 WL 9906298
(W.D. Ky. May 21, 2015) . . . . . . . . . . . . . . . . . . . . . . . 25
Sanders v. Total Heat and Air, Inc.,
248 S.W.3d 907 (Tex. App. 2008) . . . . . . . . . . . . . . . . 13
Sgouros v. TransUnion Corp.,
817 F.3d 1029 (7th Cir. 2016)  . . . . . . . . . . . . . . . . 22, 23
Southern Energy Homes, Inc. v. Godwin,
183 Fed. Appx. 441 (5th Cir. 2006) . . . . . . . . . . . . . . 22
Sturm v. Green,
398 P.2d 799 (Okla. 1965) . . . . . . . . . . . . . . . . . . . . . . 11
Sulllivan v. Buckhorn Ranch P’Ship,
119 P.3d 192 (Okla. 2005) . . . . . . . . . . . . . . . . . . . . . . . 8
U.S. v. Flemmi,
225 F.3d 78 (1st Cir. 2000) . . . . . . . . . . . . . . . . . . . . . 16
Wycoff v. Motorola, Inc.,
502 F. Supp. 77 (N.D. Ill. 1980), aff’d, 688
F.2d 843 (7th Cir. 1982)  . . . . . . . . . . . . . . . . . . . . . . . 19

viii
Cited Authorities
Page
Statutes and Other Authorities
Restatement (Second) of Agency § 34 (1958)  . . . . . . 8, 13
Restatement (Second) of Contracts § 19 (1981)  . . . . . . 19
Restatement (Third) Of Agency § 2.02 . . . . . . . . . . . 15-16

1
INTRODUCTION
Petitioner’s premise that the Oklahoma Supreme
Court has exhibited anti-arbitration animus and that
this Court must intervene stems from a false equivalency
and a simplistic narrative. The false equivalency is that
the opinion below is just like the Kentucky Supreme
Court’s opinion in Extendicare Homes, Inc. v. Whisman,
478 S.W.3d 306 (Ky. 2015) that this Court reversed
in Kindred Nursing Centers Limited Partnership v.
Clark, 137 S. C t. 1421 (2017). The simplistic narrative is
that federal courts always enforce Tamko’s arbitration
agreement printed on its shingle wrappers, or arbitration
agreements generally, while the opinion below epitomizes
a rash of anti-arbitration state court decisions, and those
recalcitrant state courts must be brought into line. Both
the equivalency and the narrative may have some surfacelevel appeal, but neither withstands close scrutiny.
The Kentucky Supreme Court, like the Oklahoma
Supreme Court here, analyzed agency principles to
determine whether an agent’s authority extended to
entering an arbitration agreement on a principal’s behalf.
To that degree the cases are similar. But the two courts
reached opposite conclusions. The Kentucky court noted
that a broad grant of authority in a power of attorney
would, under traditional agency principles, “implicitly”
allow the agent to bind her principal to arbitration.
Whissman, 478 S.W.3d at 327; Kindred, 137 S. Ct. at 1426
(describing lower court opinion).
Not liking where this application of general agency
principles was leading, the Kentucky Supreme Court
created a new rule that “ the power to waive . . .

2
fundamental constitutional rights must be unambiguously
expressed in the text of the power-of-attorney document
in order for that authority to be vested in the attorneyin-fact.” Whissman, 478 S.W.3d at 328. And it was
this “adopt[ion of] a legal rule hinging on the primary
characteristic of an arbitration agreement” that led this
Court to reverse on FAA preemption grounds. Kindred,
137 S. Ct. at 1427. See also id. at 1429 (remanding as to
another related case where it was unclear whether the
Kentucky Supreme Court’s opinion was based on its
newly created “clear-statement rule” or its application of
traditional agency law).
The opinion below created no new rule of law; though
Petitioner repeatedly frames it as having done so,
Petitioner never articulates what the supposed new rule is.
Instead, the Oklahoma Supreme Court simply concluded
that contractors who were hired to install shingles on a
roof had a narrow scope of authority and that agreeing
to binding contracts regarding the homeowners’ legal
rights fell outside that narrow scope. This conclusion is
nothing more than an application of existing law regarding
the scope of agent authority to a particular set of facts.
And while the references to constitutional rights that
are sprinkled throughout the opinion certainly provide
Petitioner with rhetorical fodder, the only actual work they
are doing in the opinion is to describe the set of facts to
which the court applied existing law.
Moreover, several fact-based questions, primarily
ar ising under state law, make this case far less
straightforward than Petitioner suggests as a vehicle for
assessing the interaction between agency principles and
the FAA. For one thing, in the absence of any evidence

3
about the existence or scope of an agency relationship,
Petitioner failed to establish that the roofers were
agents at all, and the court should have treated them
as independent contractors. See Hall v. North Plains
Concrete Service, Inc 425 P.2d 941, 945 (Okla. 1966) (the
“mere existence of a contract between a landowner and
one whom he has contract with to make improvements on
his land in nowise establishes agency”).
Second, on this inadequate record, and in light of the
evidence of shingle wrapper design submitted by Tamko
in other cases, there is significant reason to doubt whether
the contractors here knew or should have known that by
opening the bundles to begin the installation process,
they were binding the homeowners to arbitrate all future
disputes with Tamko. Put another way, even if agency were
established and even if its scope encompassed agreeing
to the warranty terms, no imputation of knowledge can
occur without agent knowledge. Gamble v. Cornell Oil
Co., 154 F. Supp. 581, 587-88 (W.D. Okla. 1957), aff’d, 260
F.2d 860 (10th Cir. 1958).
Finally, the narrative of misbehaving state courts is
cynically underinclusive, for it ignores both those federal
courts that have declined to enforce Tamko’s arbitration
agreements and the state courts that have enforced them.
Nor does the Oklahoma Supreme Court’s opinion have the
sort of sweeping implications for vendors of other products
besides roofing shingles that Petitioner ascribes to it. To
the contrary, it is Petitioner’s view of agency, which admits
of no limitations on the rights that contractors should be
able to surrender on behalf of those who employ them,
that would have truly sweeping consequences.

4
According to Petitioner’s view, roofers, drywall
installers, and plumbers should be able without restriction
to waive the legal rights of the people in whose homes they
work—to limit manufacturer liability and damages and
shorten statutes of limitations, as the Tamko warranty
already does, and to abridge other consumer rights and
grant manufacturers special entitlements that have not
yet been contemplated. The Oklahoma Supreme Court
rightly rejected this limitless view of product installer
agency, and this Court should not disturb its decision.
STATEMENT OF THE CASE
1. Daniel and Barbara Williams had Tamko Heritage
roofing shingles installed on their home in Panama,
Oklahoma in June 2007. Record on Appeal (“ROA”),
Petition ¶7. In April 2016, they noticed that the shingles
were cracking over the roof’s entire surface area, causing
water to leak through and damage the eaves and wooden
roofing beneath the shingles. Id. ¶8-9.
The Williamses complained to Tamko, who responded
with a letter instructing them to complete a warranty
claim form and submit photos of the damage along with
sample shingles from the affected area. ROA, Plaintiffs’
Response, Exhibit 1 at 16-20. That letter and claim form
did not include a copy of Tamko’s Limited Warranty. Id.
When the Willliamses sent in proof of their damages as
requested, Tamko responded with a second letter, offering
a certificate for one square of replacement shingles and
a check for $100. ROA, Plaintiffs’ Response, Exhibit 2 at
21-24, 27-28. This second letter included a brochure with
a copy of Tamko’s Limited Warranty, which was the first

5
time the Williamses had ever seen it. Id. at 25-26. The
Williamses found this response wholly inadequate, as the
extensive damage to their home required them to install
a new roof at a cost of over $10,000. ROA, Petition ¶17.
2. The Williamses filed this action for products
liability, negligent manufacture, and negligent failure to
warn. App. 2. Tamko sought to stay the proceedings and
compel arbitration, relying on an arbitration clause that
it claimed was included in the Limited Warranty printed
on the wrapper of each bundle of shingles installed on the
Williams home.
Tamko submitted an unauthenticated version of that
Limited Warranty with its motion, which purported
to apply “to all “Tamko Fiberglass Shingles sold on or
after April 9, 2007.” ROA, Defendant’s Brief in Support
of Motion to Stay, Exhibit A at 10-11. In addition to the
arbitration clause reproduced at page 5 of the Petition
for Certiorari, this Limited Warranty also contained
provisions stipulating that its obligations were “in lieu of”
any other common-law or statutory obligations on Tamko’s
part; exempting Tammko from all liability for incidental
or consequential damages (unless such exclusions were
prohibited under the law of the jurisdiction where the
shingles were installed); and shortening the applicable
statute of limitations for any claims against Tamko to
one year. Id. at 11. Relevant to the Oklahoma Supreme
Court’s finding of unconscionability, it also contained the
following definition of the term “Owner”:
“Owner” means the owner of the building at the
time the Shingles are installed on that building.
If you purchase a new residence and are the

6
first person to occupy the residence, TAMKO
will consider you to be the Owner, even though
the Shingles were already installed.
Id. at 10.
The Williamses opposed the motion to compel, arguing
that they had never seen or agreed to, and did not know
about, the Limited Warranty or its arbitration clause when
the shingles were installed or when they completed the
claim form at Tamko’s request. App. 3, 18-19.
With its reply, Tamko submitted what it represented to
be a true and correct copy of the wrapper that would have
encased each bundle of shingles installed on the Williams
home in 2007, authenticated by the affidavit of a Tamko
technical systems specialist. ROA, Defendants’ Reply,
Exhibit B-1 at 7-9. But the appearance of Exhibit B-1
differed in material respects from the Limited Warranty
introduced by Tamko as Exhibit A. See Appellants’ Reply
Brief at 7 (noting that Exhibit A had five columns of text
and five circular seals while Exhibit B-1 had three columns
of text and one circular seal). And because Exhibit B-1
was a scaled-down copy of the shingle wrapper, most of its
text was illegible, a point Tamko conceded in its brief to
the Oklahoma Supreme Court. Appellee’s Answer Brief at
3-4 (explaining that Exhibit B-1 was created by reducing
the image of the wrapper to fit on a single sheet of 8.5 x 11
paper and that “the length of the wrapper on the subject
shingles was actually 42 inches“).
3. The Williamses explained, through counsel, at
the hearing before the trial court that contractors had
selected the Tamko shingles and installed them on their

7
home, describing themselves as “passive participants”
who simply “paid for what their contractor selected.”
Appellants’ Reply Brief at 2 n.1. But the trial court’s
opinion did not discuss the contractors’ role in the
installation or address any of the doctrines of nonsignatory
enforcement, like agency or equitable estoppel, that the
Oklahoma Supreme Court opinion analyzed.
Instead, the trial court relied on Oklahoma’s longstanding rule that “a consumer is charged with the
knowledge of the contract even if he or she did not read
them.” App. 19. Analogizing this case about construction
materials to situations involving consumer products,
the court held that “when a consumer buys and uses the
goods he/she has accepted the terms and a valid contract
exists.” Id.
4. The Oklahoma Supreme Court began its opinion
by pointing out that the Williamses never had actual
knowledge of the Limited Warranty or its terms—either
when their shingles were installed or when problems
arose in 2016—and observed that this lack of personal
knowledge distinguished the instant case from three
other Tamko cases where the plaintiffs were more directly
involved in the purchasing process. App. 7 (citing Am.
Family Mut. Ins. Co. v. Tamko Bldg. Prods., Inc., 178
F. Supp. 3d 1121, 1124-25 (D. Colo. 2016), Hoekman v.
Tamko Bldg. Prods., Inc., No. 2:14-cv- 01581-TLN-KJN,
2015 WL 9591471 at *3-4 (E.D. Cal. Aug. 26, 2015) and
Krusch v. TAMKO Bldg. Prods., Inc., 34 F. Supp. 3d 584,
589 (M.D.N.C. 2014)).
Turning to the status of the contractors, the court set
out generally-applicable principles of Oklahoma agency

8
law and concluded that the contractors who installed the
shingles were acting on the Williamses’ behalf through
an implied agency. App. 8 (citing Campbell v. John Deere
Plow Co. 172 P.2d 319, 320 (Okla. 1946). But the scope of
that agency was limited, the court reasoned, to “buying
and installing shingles.” App. 8-9 (citing Restatement
(Second) of Agency §34). The contractors’ authority
did not extend to agreeing to the terms of the Limited
Warranty, which—as Petitioner quotes to the exclusion of
all other language in the opinion—included waiver of the
constitutional right to a jury trial. App. 9.
Next addressing the concept of ratification, the
court again looked to Oklahoma law and concluded that
the Williamses could not have ratified the contractors’
unauthorized conduct because they did not know the
material facts about the warranty terms. App. 10 (citing
Kincaid v. Black Angus Motel, 983 P.2d 1016, 1020 (Okla.
1999)).
Nor could Tamko utilize the equitable estoppel
doctrine to enforce the arbitration clause, the court
reasoned, for Oklahoma’s traditional equitable estoppel
test requires a knowingly false representation or
concealment of facts by the estopped party on which
another party detrimentally relied, and the Williamses
had made no such false representation. App. 12-13 (citing
Sulllivan v. Buckhorn Ranch P’Ship, 119 P.3d 192, 202
(Okla. 2005)). If anything, the court noted, Tamko was
the party who acted inequitably by soliciting a claim form
from the Williamses when they complained of problems
with their shingles but failing to provide a copy of the
Limited Warranty until after they had submitted a claim,
and then seeking to bind them to the arbitration clause

9
in that warranty through their act of submitting the very
claim form Tamko had asked them to submit. App. 13.
Finally, the court found the arbitration clause
unconscionable because the decision to print it on throwaway product packaging typically handled by builders
“was made to both oppress and unfairly surprise the
Homeowners.” App. 13-14. The definition of “Owner”
as extending to people who purchased a home after the
shingles were installed added to the court’s finding of
adhesiveness, for this provision meant that the arbitration
clause could “bind[] a purchaser of a home completed by
a builder a year earlier . . . even though at the time the
builder entered the contract with TAMKO the builder was
not the Homeowner’s agent.” App. 14 n.2.
REASONS FOR DENYING THE PETITION
I.

The Opinion Below Did Not Target Arbitration
Expressly Or Covertly But Simply Applied General
Agency Principles In A Case Involving Arbitration.

Petitioner posits that this case is an excellent vehicle
for Supreme Court review because it involves only legal
questions and there is no dispute about whether an agency
existed or about the contents of the shingle wrappers. Pet.
31. This is deeply wrong.
The portion of the Oklahoma Supreme Court’s opinion
dealing with agency answered four questions: 1) were
the contractors agents of the Williamses?; 2) were the
contractors acting within the scope of that agency when
they agreed to the warranty terms?; 3) assuming the
answer to the scope question was “no,” did the Williamses

10
nonetheless ratify the contractors’ conduct?; and 4) can the
contractors’ knowledge of the warranty terms be imputed
to the Williamses? App. 8-11. The second question on scope
proved dispositive, but Respondents believe that the court
answered the first question, on the existence of agency,
incorrectly and so should never have reached the second.
And while the court reached the right conclusion on the
third and fourth, knowledge-related, questions, it did so,
at least in part, for the wrong reasons.
At none of these steps did the court’s actual analysis,
or the analysis that Respondents suggest it should have
followed instead, turn on the presence of an arbitration
agreement. To be sure, the opinion below mentioned the
constitutional right to a jury trial on several occasions, but
it did not create a different rule for waivers of constitutional
rights than for all other rights. Kindred, 137 S. Ct. at
1427. Had the opinion below held that the contractors’
agency was broad enough to bind the Williamses to all of
Tamko’s warranty terms except the arbitration clause,
then Petitioner would have a valid basis for comparing
this case to Kindred. But that’s not what happened.
Rather, what proved dispositive to the Oklahoma
Supreme Court were the narrow scope of the contractors’
authority and the Williamses’ lack of knowledge. App.
9 (“one-time selection and installation of shingles by
a contractor without a formal agency agreement does
not indicate an authorization to waive a constitutional
right”; App. 10 (“There are no facts suggesting that
the Homeowners knew of the arbitration clause, so the
Homeowners could not ratify the arbitration provision.”).
And in light of the scant and conflicting information in
the record about the wrappers containing the shingles

11
that were installed on the Williams home, assessing what
the contractors knew or understood at the time they
performed the installation about the warranty generally
and the arbitration clause in particular makes the agency
analysis even more difficult. These factual considerations,
set against the backdrop of traditional agency principles,
drove the Oklahoma Supreme Court’s analysis. A desire
to flout the FAA did not.1
A.

Tamko Had The Burden Of Proving The
Existence And Scope Of Any Agency And
Failed To Meet That Burden.

The Oklahoma Supreme Court has held that “existence
of agency cannot be presumed.” Sturm v. Green, 398 P.2d
799, 804 (Okla. 1965). Instead, the party who relies upon
such an agency must “prove the fact of agency and the
scope of the agent’s authority.” Id. Here, Tamko advanced
its agency argument before the trial court, even though
that court did not address it. ROA, Brief in Support
of Motion to stay at 6. But Tamko made no attempt to
obtain evidentiary support for that argument, such as by
requesting discovery from the Williamses. 2
All the record has to say about a potential agency is
that contractors installed the shingles on the Williamses’
1. Because this case arose in state court, there is cause to
question whether the FAA applies at all. See Kindred, 137 S. Ct.
at 1429-30 (Thomas, J., dissenting).
2. Tamko has produced such evidence in other cases,
including one of the cases it raises before this Court in portraying
the opinion below as an outlier. See Krusch, 34 F. Supp. 3d at 589
(describing affidavit from supplier produced by Tamko attesting
to agency relationship).

12
roof. ROA, Petition ¶7. Before the Oklahoma Supreme
Court, the Williamses clarified statements they had made
in their trial court briefing about purchasing the shingles
by explaining that they paid for the shingles but that their
contractors selected them. Appellants’ Reply Brief at 2
n.1 (“Plaintiffs were passive participants in that they paid
for what their contractor selected”). Based on these two
rather slender reeds, the Oklahoma Supreme Court found
that an implied agency existed where “[t]he Homeowners
authorized the contractors to select and install shingles
on the Homeowner’s roof.” App. 8.
But it is unclear from this record that the Williamses
exercised the amount of control over the contractors
necessary to establish an agency relationship. See Banning
Transp., Inc. v. Vansickle, 527 P.2d. 586, 588 (Okla. 1974)
(“An agency relationship does not exist unless conduct of
parties manifests that one of them is willing for the other
to act for him subject to his control and that the other
consents to so act.”). 3 By contrast, the autonomy exercised
by the contractors, in which they selected which shingles
to install and the Williamses simply paid for them, is more
indicative of an independent contractor arrangement. See
id. (“an ‘independent contractor’ is one who, exercising an
independent employment contract to do work according
to his own methods and without being subject to control
of his employer except as to result of work.”).
Under Oklahoma law, a contractor who is hired to
make improvements to property and is paid for that
work is not automatically the homeowner’s agent. Hall
v. North Plains Concrete Service, Inc., 425 P.2d 941, 945
3. Unless otherwise indicated, all internal quotations and
citations are omitted.

13
(Okla. 1966) (contractor who agreed to move barn onto
the homeowner’s property and re-erect it, furnishing
all materials used, “for a fixed price,” was not the
homeowner’s agent). Other states are in accord. Sanders v.
Total Heat and Air, Inc., 248 S.W.3d 907, 914-17 (Tex. App.
2008) (general contractor was not agent of homeowner and
lacked authority to bind her to contract with supplier of
heating and air conditioning system).
At a minimum, there are not enough facts in the record
from which the question of agency can be conclusively
answered. The Oklahoma Supreme Court was wrong to
proceed to the second step of the analysis and consider
the scope of an agency that Tamko never proved to have
existed.
B. The Oklahoma Supreme Court Correctly
Concluded That Agreeing To Waive Legal
Rights Is Not Incidental Or Reasonably
Necessary To The Installation of Shingles.
The opinion below looked to the Restatement to
determine whether binding the Williamses to the
arbitration agreement in Tamko’s warranty was within
the scope of the contractors’ authority. App. 8-9 (citing
Restatement (Second) of Agency § 34 (1958)). Some of
the circumstances the Restatement considers relevant
are the relationship between the parties, the business in
which they are engaged, and the formality or informality
“with which an instrument evidencing the authority is
drawn.” Id. Applying these factors, the court concluded
that the relationship of the parties (one-time transaction)
and the nature of their business (selection and installation
of shingles), combined with the lack of any formal agency

14
agreement, added up to a narrow scope of authority that
did not extend to binding the Williamses to arbitrate.
App. 9.
As Petitioner correctly observes, Oklahoma law
recognizes that agents are implicitly authorized to perform
acts “incidental” or “necessary” to the accomplishment of
their primary objective. Pet. 17. But it certainly does not
follow uncontroversially that binding someone else to
warranty terms that give up a swath of legal rights, not
just to access the courts and have a jury trial but also
to pursue non-warranty claims and seek incidental or
consequential damages, is “incidental” or “necessary” to
completing a construction project.
Petitioner and its amicus cite Elliott v. Mutual Life
Ins. Co. of New York, 91 P.2d 746 (Okla. 1939), a case about
whether an agent had authority to cancel a life insurance
policy by signing his principal’s name. In concluding that
he did, the Oklahoma Supreme Court noted that “the
means and method adopted by [the agent] in carrying out
the delegated authority were within the contemplation of
the parties.” Id. at 748. However, the existence of Tamko’s
warranty, and the notion that the contractors had agreed
to its terms as part of the shingle installation process, was
certainly not within the contemplation of the parties here.
At the very least, it was not something the Williamses had
contemplated. App. 10, 19.
Nor did the Oklahoma Supreme Cour t break
with precedent or apply heightened scrutiny because
an arbitration clause was at issue. Oklahoma courts
have found agents to have exceeded their authority on
numerous other occasions not involving arbitration. See,

15
e.g., DeCorte v. Robinson, 969 P.2d 358, 361-62 (Okla.
1998) (discussing how police officer could be acting within
scope of his authority when initiating an arrest but then
exceed that authority by assaulting the suspect); Bank of
McAlester v. Middlebrooks, 241 P. 765, 767-68 (Okla. 1925)
(wife acted as limited agent by collecting money from bank
for husband on one occasion but could not bind husband to
representations about commercial paper beyond the scope
of this limited agency); see also Mutual Oil Co. v. Roach,
243 P. 504, 505 (Okla. 1926) (agent’s “authority was to do
a specific act, and he could not make an admission that
would be binding upon his principal as to other matters
of the transaction not included in his authority.”).
And despite Petitioner’s desire to tell a story in
which law-abiding federal courts are pitted against rogue
state courts, federal courts throughout the country have
reached similar conclusions, even in cases involving
arbitration. In GGNSC v. Southaven, 817 F.3d 169, 180
(5th Cir. 2016), for example, the fifth Circuit held that a
fact question existed as to whether a son was authorized
to act as his mother’s agent and whether the scope of
that agency included giving up her legal rights through
an arbitration agreement, in addition to making medical
and financial decisions for her.
In setting out the factors to be considered, the Fifth
Circuit noted that “’the consequences that a particular
act will impose on the principal may call into question
whether the principal has authorized the agent to do
such acts,’ such as when acts ‘create legal consequences
for a principal that are significant and separate from the
transaction specifically directed by the principal’.” Id.
at n.4 (quoting Restatement (Third) Of Agency § 2.02,

16
comment h). See also Opp v. Wheaton Van Lines, Inc., 231
F.3d 1060, 1065 (7th Cir. 2000) (ex-husband did not have
authority to sign bill of lading limiting movers’ liability
when all ex-wife had authorized him to do was open the
door and let the movers in); U.S. v. Flemmi, 225 F.3d 78,
86 (1st Cir. 2000) (FBI agents did not have authority to
offer immunity to informants because offering immunity
was not incidental or reasonably necessary to their duty
of investigating crime, opining that “[w]ere the law
otherwise, the concept of ‘incidental to duty’ would stretch
so interminably as to become entirely unworkable as a
limiting principle.’”).
Finally, Petitioner avers without support that the
opinion below treated Tamko’s arbitration provision
more harshly than “other terms found on [the shingles’]
packaging.” Pet. 11. Tamko was only seeking to enforce
its arbitration provision, not any of the other warranty
terms, so the lower courts limited their opinions to the
specific provision at issue.
Petitioner and its amicus make much of this silence,
suggesting that the remainder of the warranty would
have been enforced. But there is nothing in the opinion
to substantiate that claim.
The opinion below found that roofers hired to handle
a single installation job did not have authority to bind
their principals to rights-limiting contract terms, a result
consistent with decades-old Oklahoma law on the scope
of agent authority. It created no new, arbitration-specific
rule. Petitioner has tried to concoct one by quoting
language about the lack of a formal agency agreement
here, Pet. 19, taking that language out of context as a

17
proposed requirement instead of a mere statement of fact.
This Court should not countenance such a transparent
attempt to make this case seem more like Kindred than
it actually is.
C.

Neither Ratification Nor Imputation Is
Possible Without Actual Notice, On The Face
Of The Shingle Wrapper, Of The Contractual
Significance Of Unwrapping The Bundle.

The Oklahoma Supreme Court noted that the
Williamses could only ratify their contractors’ act of
agreeing to arbitration if they possessed “full knowledge
of the facts.” App. 9-10. And the court went on to note a
tension with the concept that an agent’s knowledge will be
imputed to the principal, suggesting that if the principal
was deemed to have knowledge through imputation,
this could create an end-run around the rule that only a
principal with knowledge of an agent’s unauthorized acts
will be bound by them through ratification. App. 10-11.
The concepts of imputation of agent knowledge and
ratification of agent conduct both have a long history in
Oklahoma law, and they are not usually in as much tension
as the passage from the opinion below suggests. The
imputation concept derives from the fact that “agency is
a fiduciary relation” and agents owe duties of care and
loyalty to their principals. Douglas v. Steele, 816 P.2d
586, 589 (Okla. Civ. App. 1991) (holding that travel agent
“had a duty to act with the care, skill and diligence a
fiduciary rendering that kind of service would reasonably
be expected to use”). This duty required the travel agent
to investigate the financial stability of the tour company
she had recommended and inform her customers of its
potential insolvency. Id. at 590.

18
Because agents are expected to share all relevant
information with their principals on matters within the
scope of their agency, principals can be charged with
knowing anything the agent knows on those subjects. See
Aetna Cas. & Sur. Co. of Hartford, Conn. v. Local Bldg.
& Loan Ass’n, 19 P.2d 612, 616 (Okla. 1933) (recognizing
an exception to the imputation rule for facts related to an
agent’s independent fraudulent activity, because “where
the agent is committing a fraud it would be contrary to
common sense to presume that he would communicate the
facts to his principal”).
The ratification doctrine arises in situations, like the
fraud described in Aetna, where an agent has committed
an unauthorized act. And it is rooted in the equitable
notion that if the principal knows what the agent is
doing and is benefitting from it, then the mere fact that
the agent was acting outside his authority should not
immunize the principal from liability. See D. W. L., Inc.
v. Goodner-Van Engineering Co., 373 P.2d 38, 42 (Okla.
1962) (finding ratification where principal, “who from
the very beginning, was kept informed of [agent’s] ‘every
move’, had full knowledge of the transaction and retained
all of its fruits.”).
But there is another reason besides self-dealing or
fraud that an agent might not share knowledge with its
principal: it may have no knowledge to share. Although
the opinion below did not discuss this limitation to the
imputation rule, other courts both within and outside of
Oklahoma have recognized it. Gamble v. Cornell Oil Co.,
154 F. Supp. 581, 587-88 (W.D. Okla. 1957 (“The basis for
charging a principal with knowledge held by an agent
rests in the presumption that all information actually

19
possessed by the agent will be conveyed to its principal.
No such presumption can exist where the agent is without
actual knowledge.”), aff’d, 260 F.2d 860 (10th Cir. 1958);
see also Wycoff v. Motorola, Inc., 502 F. Supp. 77, 93 (N.D.
Ill. 1980) (“only actual knowledge of an attorney or agent
can be imputable to the client or principal”), aff’d, 688
F.2d 843 (7th Cir. 1982).
And there is considerable reason to question whether
the Williamses’ contractors had actual knowledge
of Tamko’s warranty terms. Nor is it only the terms
themselves of which the contractors would need to have
knowledge: Petitioner’s theory of imputation requires
them to have understood 1) that the act of opening and
installing the shingles made the warranty terms take
effect and become binding; and 2) that the link between
unwrapping the shingles and triggering the warranty’s
binding effect applied not just to the contractors but also
to the homeowners.
Indeed, without such knowledge, the contractors’
act of opening the shingles wouldn’t have bound the
Williamses to anything and so would not have exceeded
their authority, because acceptance by conduct is only
effective if the offeree understands, or should understand,
the contractual significance of his action. See Restatement
(Second) of Contracts § 19 (1981) (“The conduct of a party
is not effective as a manifestation of his assent unless he
intends to engage in the conduct and knows or has reason
to know that the other party may infer from his conduct
that he assents.”).
Determining whether the shingle wrapper conveyed
all of this information in a manner that would put a

20
reasonable contractor on notice requires an exemplar of
what the wrapper of the Williamses’ shingles looked like,
but the record below contains no such exemplar that is
legible.4 One of the few lines of text legible on Exhibit B-1
is the admonition: “IMPORTANT, READ CAREFULLY
BEFORE OPENING BUNDLE.” But this notice does not
specify whether reading is important because the wrapper
contains information about safe installation practices,
which would be pertinent to a roofer, or because it contains
binding contractual provisions affecting the future legal
rights of the homeowner and that unwrapping the shingles
will constitute assent to those contract terms.
As Petitioner notes repeatedly, this is not the first
time Tamko has litigated over its shingle wrapper
warranty, and several of those earlier cases offer more
robust records. In Hoekman, for example, where the
subject shingles were installed in 2005 (only two years
before the Williamses’ shingles), Tamko supplied several
4. Tamko presented a full-sized exemplar shingle wrapper
at the trial court hearing and belatedly conveyed a copy to the
Oklahoma Supreme Court after the trial court clerk had already
transmitted the record and the Williamses had already submitted
a brief based on an official record that did not contain the fullsized exemplar wrapper. Amendment to Appellee’s Answer Brief
at 1; Appellants’ Reply Brief at 1, 19-20. Moreover, the photocopy
of the full-sized exemplar included in Tamko’s briefing to the
Oklahoma Supreme Court is folded so that only a portion is
visible, so Respondents’ counsel still has not seen the exhibit in
its entirety. Amendment to Appellee’s Answer Brief, Exhibit A.
Complicating matters further, Tamko qualified that “the text on
the [full-sized] exemplar wrapper is slightly modified from the text
contained on the wrapper at the time of the Williams’ purchase,”
but did not specify what content had changed. Appellee’s Ansewr
Brief at 3 n.2.

21
photographs depicting the wrapper’s design, including the
language that appeared beneath the admonition to “READ
CAREFULLY.” Hoekman, No. 2:14-cv-01581-TLN, (E.D.
Cal.), Docket Entry 12-3. This portion of the Hoekman
wrapper went on to say that “[b]y Opening this bundle
You agree (a) to install shingles strictly in accordance with
the Instructions printed on this wrapper; or (b) leaks and
other roofing defects resulting from failure to follow the
manufacturers Installation instructions printed on this
wrapper are not covered by the limited warranty that is
also printed on this wrapper.” Id.
In other words, the Hoekman wrapper warned
contractors that if they did not follow the installation
instructions, they would not be protected by the warranty
if a dispute about workmanship later arose between them
and the homeowner. Perhaps the wrapper applicable to
the Williams shingles did a better job of conveying the
very different message that by opening the bundle the
contractor would also be binding the homeowner to legal
obligations in the warranty unrelated to the contractors’
performance of their installation duties. On this record,
it’s impossible to tell.
If the notice on the Williamses’ shingle wrappers
proves inadequate, then a decision not to enforce the
arbitration provision printed on that wrapper would be
consistent with numerous federal court opinions denying
enforcement to arbitration clauses for similar noticebased reasons. See, e.g., Nat’l Fed’n of the Blind v. The
Container Store, Inc., 904 F.3d 70, 83-84 (1st Cir. 2018)
(inadequate notice of arbitration provision displayed on
point-of-sale device); Dakota Foundry, Inc. v. Trombley
Indus. Holdings, Inc., 737 F.3d 492, 494-97 (8th Cir. 2013)

22
(inadequate notice of “terms and conditions” referenced
in price quote email); Southern Energy Homes, Inc.
v. Godwin, 183 Fed. Appx, 441, 443 (5th Cir. 2006)
(inadequate notice of arbitration provision in warranty
section of mobile home “homeowner’s manual”).
Even if the Williamses’ version of the wrapper
contained additional information about the warranty’s
binding nature, combining that information with the
warning about installation instructions present in
Hoekman would have impeded the clarity of the notice in
a way that would have made acceptance by performance
impossible. See Sgouros v. TransUnion Corp., 817 F.3d
1029 (7th Cir. 2016). In Sgouros, the plaintiff obtained a
credit score from TransUnion through an online process
where he had to submit identifying information and then
click a button labeled “I Accept & Continue to Step 3,”
where a scrolling window above the “I Accept” button
contained a Service Agreement including an arbitration
provision, and a bold-face paragraph also above the “I
Accept” button informed users that “by clicking on the
‘I Accept & Continue to Step 3’ button below,” they were
authorizing TransUnion to collect credit information about
them from Experian and Equifax. Id. at 1031-33.
The Seventh Circuit ruled that the text about obtaining
information from other credit bureaus “distracted the
purchaser from the Service Agreement by informing him
that clicking served a particular purpose unrelated to the
Agreement.” Id. at 1036. Moreover, this ambiguity about
what the purchaser was agreeing to by clicking the button
“undid whatever notice [TransUnion] was furnishing
in its bold text block,” rendering the notice ineffective
and the arbitration provision in the Service Agreement
unenforceable. Id.

23
On the current record rife w ith disputes and
ambiguities, it is unclear how apt the comparison to
Sgouros actually is. But where Tamko wants to imbue
the act of ripping off shingle packaging with contractual
significance, with the added wrinkle that the act will bind
not only the people doing the ripping but also the people
who hired them, it must provide adequate notice of this
unusual means of contracting.
Without such notice, there is neither any agent
knowledge to impute, nor any unauthorized act for the
Williamses to ratify if they had known about it (which
they didn’t). The shingle wrapper would not be an offer
to contract by proxy, but just a shingle wrapper. And this
alternative reason that the Oklahoma Supreme Court
reached the right result, like the lack of evidence of agency
discussed in part I-A, has nothing to do with singling out
or disfavoring arbitration.
II. Petitioner’s Account Of Federal And State Cases
Involving Its Shingles Is Exaggerated And
Incomplete.
Layering hyperbole upon hyperbole, Petitioner
charges that “every court to consider this agreement”
has rejected “materially identical objections.” Pet. 21,
31. But each federal court to consider Tamko’s shingle
wrapper warranties has done so in a distinct factual
context in cases alleging distinct claims, and those factual
and legal differences have influenced the reasoning of
those opinions. They are not all carbon copies of one
another. More to the point, to create a neater federalstate dichotomy, Petitioner simply ignores any federal
court opinion that declined to enforce its warranty and

24
any state court opinion that did enforce it, a pattern the
Petition repeats when it turns to supposed state court
insubordination more generally.
As the Oklahoma Supreme Court noted, the plaintiffs
in American Family and Hoekman both shopped for
and selected Tamko shingles personally, whereas the
Williamses let their contractors choose the shingles to
be installed. Indeed, the primary holding of the court
in Hoekman was that the plaintiffs should have learned
about the warranty terms when comparison-shopping for
shingles, with the alternative holding on agency relegated
to the end of the opinion. Hoekman, 2015 WL 9591471,
at *3-4 (knowledge through comparison-shopping); id.
at *6-7 (discussing agency but adding that “Plaintiffs’
connection to the Limited Warranty is even closer,
because they personally shopped for and purchased the
shingles.”). See also Am. Family, 178 F. Supp. 3d at 1126
(“it was the [plaintiffs’] insureds who decided to purchase
defendant’s shingles”); id. at 1127-28 (argument about
procedural unconscionability “might have more traction
had [the agent] unilaterally chosen the shingles without
input from the insureds”).
The plaintiff in Krusch sued both Tamko and its
distributor, and the distributor submitted an affidavit
explaining that prior to purchase, the plaintiff’s agent had
obtained both a product brochure and a sample shingle tile
with a notice about the warranty stamped on it. 34 F. Supp.
3d at 589. The Oklahoma Supreme Court noted that these
marketing materials were much more likely to be passed
along to the principal than throwaway packaging.” App.
7. In this case, by contrast, the facts did not “show that
[the Williamses] or their contractor received brochures
mentioning a warranty.” Id.

25
The Eleventh Circuit’s opinion in Dye v. Tamko
Building Products, Inc. is more factually similar to
this case than Hoekman or Krusch in that there was
no evidence that the plaintiffs comparison-shopped or
that their contractors were given sample shingles with
warranty information on them. Dye was also similar to
this case in that the record contained no exemplar copy
of the shingle wrapper that the plaintiffs’ contractors
would have seen, leading plaintiffs’ counsel to make the
same arguments about lack of notice advanced in this
brief. The Eleventh Circuit found these arguments to
have been insufficiently developed before the district
court and deemed them waived. 908 F.3d 675, 681 n.5 (11th
Cir. 2018). Given the Williamses’ consistent argument in
the state court that Tamko failed to meet its burden of
producing a valid arbitration agreement, no waiver of the
notice arguments occurred here.
Finally, the complaint in Overlook Terraces, Ltd.
v. Tamko Building Products, Inc. included claims for
breach of express and implied warranty, and the court
there found that equity barred the plaintiff from seeking
to enforce provisions of the warranty while seeking to
avoid the arbitration provision in that same warranty. No.
3:14–CV–00241–CRS, 2015 WL 9906298, at *4 (W.D. Ky.
May 21, 2015). The opinion below distinguished Overlook
in its discussion of the third-party beneficiary doctrine,
noting that the Williamses’ claims sounded in tort and did
not rely on any warranty terms. App. 11-12.
Petitioner rehashes its disagreement with the opinion
in Hobbs v. Tamko Building Products, Inc., 479 S.W.3d
147 (Mo. Ct. App. 2015), which this Court has already
declined to review. Pet. 26-27 and n.4. Yet, it neglects to
mention that the year after Hobbs was decided, another

26
state appellate court enforced Tamko’s arbitration clause,
rejecting an unconscionability challenge. One Belle Hall
Prop. Owners Ass’n, Inc. v. Trammell Crow Residential
Co., 791 S.E.2d 286 (S.C. App. 2016). Also missing from
its laundry list is a federal court opinion that refused
to enforce the clause because, as here, Tamko failed to
include an authenticated version of it in the record. Nelson
v. Tamko Bldg. Prods., Inc., No. 15–1090–MLB, 2015 WL
3649384, at *2 (D. Kan. June 11, 2015). The fate of Tamko’s
arbitration clause is not as stratified along federal-state
court lines as the Petition suggests.
This selectivity persists when Petitioner widens its view
to canvas recent opinions from the “repeat FAA offenders”
of Oklahoma, California and Missouri. Pet. 27-28. While
Petitioner describes three opinions from appellate courts
in those states that did not enforce arbitration agreements,
a quick search reveals an equal number of opinions from
the same states in the same time period that came out
the other way. Diaz v. Sohnen Enterprises, 245 Cal. Rptr.
3d 827 (Cal. App. 2019) (plaintiff’s continued employment
after employer introduced new arbitration agreement
constituted acceptance notwithstanding her verbal and
written objections, and arbitration agreement was not
unconscionable); Ingrim v. Brook Chateau, 586 S.W.3d
772, 776 (Mo. 2019) (attorney-in-fact had authority to
admit plaintiff to residential care facility, and signing
arbitration agreement was incidental to the admission
process, citing Kindred); Medeiros Revocable Trust v.
Morgan Stanley Smith Barney LLC, 446 P.3d 533, 536-37
(Okla. Civ. App. 2019) (receiver was bound to arbitrate as
successor-in-interest to a signatory). And there are more
where these come from.

27
Tamko sounded the same alarm about state court
intransigence in its petition for certiorari in Hobbs four
years ago. TAMKO Bldg. Prods., Inc. v. Hobbs, No. 151318 (U.S.). Its claims are no more true or less overblown
in their second incarnation, and the result should be the
same.
III. The Opinion Below Will Not Interfere With
Commerce, But Embracing Petitioner’s Radical
View Of Agency Would Have Far-Reaching
Consequences.
Petitioner suggests that this Court must intervene
so that manufacturers will be able to continue enforcing
arbitration provisions in Oklahoma. This formulation
exaggerates the breadth of the opinion below and
discounts the ability of manufacturers to come up with
effective ways of communicating contract terms.
The Oklahoma Supreme Court held only that an
implied agency to install roofing shingles did not authorize
the agent to agree to arbitration. It said nothing about
the scope of agency that purchasers of computer software
have with Best Buy or members of its Geek Squad. Pet.
30. And the opinion below relied in part on the “industry
custom” that construction materials are usually handled
by someone besides the homeowner, with packaging
thrown away afterwards. App. 9. The software industry
has different customs, and the applicability of this opinion
outside the construction context will likely be limited.
Moreover, the discussion of Krusch in the opinion
below offered a blueprint for manufacturers of how
to place end users of their products on notice of their

28
associated contract terms. Including those terms in
product brochures that contractors would be expected
to share with customers is one mechanism; publication
of those terms in consumer magazines would be another.
In short, there are a myriad of ways that Tamko could
have informed consumers of its warranty terms, and
then bound them to those terms through purchase of
the product. All the Oklahoma Supreme Court said was
that printing those terms on product packaging that
consumers are unlikely to ever see, and then relying on
agency to fill in the knowledge gap, is not a valid way of
forming a contract. Many valid alternatives remain.
While the opinion below was narrow, Tamko’s view of
agency, is dangerously broad. The position that Tamko has
already persuaded the Eleventh Circuit to adopt, and that
it wants this Court to endorse, is that any contractor who
is authorized to buy a product is an agent, and can bind the
principal to any rights-limiting terms associated with that
product that the product’s manufacturer might want to
impose. This rule would have sweeping consequences in the
sphere of home construction and maintenance, for it could
allow manufacturers of toxic drywall or lead-emitting pipe
fittings to immunize themselves from liability for the harm
their products cause by printing rights-limiting language
on packaging and then relying on builders or plumbers to
bind end users to that rights-limiting language through
the act of installation. It would only be a matter of time
before litigation ensues between homeowners,developers
and contractors about whether the builder, plumber or
other construction worker exceeded his authority by
waiving some particular legal right.

29
And the rights at issue could go beyond consequential
damages and jury trials. What would stop a manufacturer
from including an “inspection clause” on product
packaging waiving the homeowner’s property right to
exclude so that the manufacturer or its agents could enter
the home at will to assess how the product is performing
five or ten years later?
Finally, nothing in Petitioner’s purchasers-asagents theory is limited to home construction. Consider
that theory applied to the market for food. Everyone
who dines at a restaurant, Petitioner’s logic suggests,
expressly delegates to the restaurant’s staff the authority
to purchase food on the diners’ behalf. If the restaurant
purchases chicken tainted by salmonella and if anyone in
the chicken’s chain of production, from the grower to the
processor to the wholesaler who sold the chicken to the
restaurant, had attached a limitation of liability to the
product, a diner would not be able to sue anyone except,
perhaps, the restaurant, for damages from ingesting
the contaminated meat because the restaurant, as the
diner’s food-purchasing agent, would be authorized to
waive negligence and personal injury claims on the diner’s
behalf. This perverse result would be hazardous to public
health, but it is a natural consequence of Petitioner’s
preferred rule, where any rights-limiting language can
be printed on product packaging and agreed to by anyone
in the supply chain, binding anyone downstream in that
chain through principles of agency.

30
The Oklahoma Supreme Court was correct not to
follow Petitioner down this treacherous path. Its opinion
should remain intact.
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,
Jeremy K. Ward
Jennifer A ry
Franden | Farris | Quillin |
Goodnight + Roberts
Two West Second Street,
Suite 900
Tulsa, OK 74103
(918) 583-7129

K arla Gilbride
Counsel of Record
Public Justice, P.C.
1620 L Street NW,
Suite 630
Washington, DC 20036
(202) 797-8600
kgilbride@publicjustice.net

Counsel for Respondents
April 1, 2020

